                    Audit of Incurred Cost for the Period
                     July 1, 1999, through June 30, 2000

                                 August 2004

                     Reference Number: 2004-1C-138




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            August 9, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Incurred Cost for the Period July 1, 1999, through
                              June 30, 2000 (Audit #20041C0238)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       November 13, 2000, incurred cost proposal and related books and records for
       reimbursement of Fiscal Year 2000 incurred costs. The purpose of the examination
       was to determine allowability of direct costs and to establish audit-determined indirect
       cost rates for the period July 1, 1999, through June 30, 2000. The proposed rates apply
       primarily to the contractor’s flexibly priced contracts.
       The DCAA opined that, except for the overhead expense rate, the contractor’s indirect
       rates are acceptable as submitted. However, the claimed final overhead rate is
       acceptable as adjusted by the DCAA’s examination. The DCAA questioned .24 percent
       of the contractor’s claimed final overhead rate. The DCAA’s evaluation showed the
       contractor included unallowable costs in its overhead expense pool. The contractor
       agreed with the final overhead rate. Additionally, claimed direct costs are acceptable
       and are provisionally approved pending final acceptance.
       Further, the DCAA indicated the contractor’s accounting system is considered
       inadequate in part for the accumulation, reporting, and billing of costs on Federal
       Government contracts. According to the DCAA, the contractor’s forward pricing
       proposals and incurred cost submissions may be overstated because of a lack of
       policies and procedures to identify and exclude unallowable costs.
       The DCAA qualified its audit report because results of the assist audits for the
       subcontract costs had not been received. The results of the assist audits are
                                           2

considered essential to the conclusion of the audit and may disclose additional
questioned costs.
This DCAA report was issued in September 2001; however, the Treasury Inspector
General for Tax Administration (TIGTA) did not receive the report until July 2004. The
Internal Revenue Service (IRS) previously received a copy of the report directly from the
DCAA. We are transmitting the report to you to enable the IRS to track any financial
accomplishments derived from negotiations with the contractor based on the results of
this DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
